No.

i&

M-Jh
In the

Supreme Court of the United States
October Term, 20.

Supreme Court. U S
filed

JUN 2.1-2021
PfflCEOFTH^,^

In re PETER R. CULPEPPER, Petitioner

PETER R. CULPEPPER,
Appellant - Petitioner,
v.
PROVECTUS BIOPHARMACEUTICALS, INC.,
Appellee -Respondent

Petition for Writ of Mandamus

PETER R. CULPEPPER
9700 Collier Pass Lane
Knoxville, TN 37922
(865) 604-0657
Petitioner, Pro Se

QUESTION PRESENTED FOR REVIEW
Whether, under the Federal Arbitration Act (“FAA”),
respondent-chancellor abused her discretion in
applying the Tennessee Uniform Arbitration Act
(“the Act”) when the FAA was expressly mandated by
petitioner’s Employment Agreement as drafted by
counsel for appellee-respondent, providing for a clear
and established legal right to be enforced in
petitioner’s filed application for the purpose of
seeking vacatur of his arbitration award under the
FAA as opposed to the Act.

PARTIES
Peter R. Culpepper
- Appellant - Petitioner
The Honorable Ellen Hobbs Lyle, Chancellor
Davidson County Chancery Court, Part III, Nashville,
Tennessee
- Respondent - Chancellor
Provectus Biopharmaceuticals, Inc.
- Appellee ~ Respondent
Martha L. Boyd, Esq., Baker, Donelson, Bearman,
Caldwell & Berkowitz, P.C.
- Counsel for Appellee - Respondent
Samuel Lanier Felker, Esq., Baker, Donelson,
Bearman, Caldwell & Berkowitz, P.C.
- Counsel for Appellee - Respondent

RULE 29.6 STATEMENT
Petitioner Peter R. Culpepper is a person and appelleerespondent Provectus Biopharmaceuticals, Inc. is a
publicly held corporation.

in

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW

11

PARTIES

m

RULE 29.6 STATEMENT

in

TABLE OF AUTHORITIES

v

PETITION FOR WRIT OF MANDAMUS

xi

PRIOR OPINIONS

xi

JURISDICTION

Xll

CONSTITUTIONAL PROVISIONS

xm

STATUTES INVOLVED

xiv

STATEMENT OF THE CASE

1

PROCEDURAL HISTORY

1

FACTS

5

ARGUMENT

9

PRAYER

22

APPENDIX

A-i

IV

TABLE OF AUTHORITIES
Case

Allen v. Tenet Healthcare Corp.,
370 F. Supp. 2d 682 (M.D. Tenn. 2005)
Allied Chemical Corp. v. Daiflon, Inc.,
449 U.S. 33 (1980)....................

Page(s)

9

17, 19

At&t Mobility LLC v. Concepcion,
563 U.S. 333 (2011)............

12

Bankers Life & Cas. Co. v. Holland,
346 U.S. 379 (1953)...............

20

CBS, Inc. v. Young,
522 F.2d 234 (6th Cir. 1975)

20

Cherokee Country Club v. City ofKnoxville,
152 S.W.3d 466 (Tenn. 2004)..............

17

Colonial Times, Inc. v. Gasch,
509 F.2d 517 (D.C. Cir. 1975)
Coventry Health Care ofMissouri v. Nevils,
137 S. Ct. 1190 (2017).........................

19, 20

10

Culpepper v. Baker, Donelson, Bearman, Caldwell &
Berkowitz, P. C.,
No. E2019-01932-COA-R3-CV, 2020 WL 6112985
(Tenn. Ct. App. Oct. 16, 2020)
1, 2, 4, 5, 6, 7

Davis v. Reliance Elec.,
104 S.W.3d 57 (Tenn. Ct. App. 2002)

9

DirecTV, Inc. v. Imburgia,
577 U.S. 47 (2015).

10

Epic Systems Corp. v. Lewis,
138 S.Ct. 1612 (2018).

12

Ex parte Palm Harbor Homes, Inc.,
798 So.2d 656 (Ala. 2001) ....

19

First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995).......................

11

Frizzell Constr. Co. v. Gatlinburg, L.L.C.,
9 S.W.3d 79 (Tenn. 1999)...............

9

General Atomic Co. v. Felter,
436 U.S. 493 (1978) ....

18

Hall St. Assocs., L.L.C. v. Mattel, Inc.,
552 U.S. 576 (2008)...................

10

Henry Schein v. Archer and White Sales,
139 S.Ct. 524 (2019).......................

11

In re 24R, Inc.,
324 S.W.3d 564 (Tex. 2010)

18

In re Rubiola,
334 S.W.3d 220 (Tex. 2011)

18

vi

Mastrobuono v. Shearson Lehman Hutton, Inc.,
514 U.S. 52 (1995)......................................

10

Meighan v. US Sprint Communications Co.,
942 S.W.2d 476 (Tenn. 1997).............

17

Owens v. Natl Health Corp.,
263 S.W.3d 876 (Tenn. 2007)

10

Provectus Biopharmaceuticals, Inc. v. Culpepper,
No. M2019-00662-COA-R3-CV, 2020 WL 1867043
(Tenn. Ct. App. Apr. 14, 2020)..xi, 1, 4, 8, 11, 13*15
Schlagenhauf v. Holder,
379 U.S. 104 (1964)

20

Southland Corp. v. Keating,
465 U.S. 1 (1984).....

18

Tanner v. Am. Bondholder Foundation, LLC,
2013 WL 6384543 (M.D. Tenn. Dec. 6, 2013)

11

United States v. Hughes,
413 F.2d 1244 (5th Cir. 1969)

20

United States v. United States District Court,
444 F.2d 651 (6th Cir. 1971)..................

20

Volt Info. Sci., Inc. v. Bd. ofTr. ofLeland Stanford Junior
Univ.,
489 U.S. 468 (1989)
10

Vll

U.S. Constitution
xiii, 11, 18

U.S. Const, art. VI, cl. 2

Statutes
9 U.S.C. §§ 1 et. seq.

5, 7, 10

9 U.S.C. § 2.............

12

9 U.S.C. § 10(a)......

13

9 U.S.C. § 12.................................................

xiv, 8, 11, 12

28 U.S.C. § 1651(a)......................................

Xll

Tenn. Code Ann. §§ 29-5-301 through 320

10

Tenn. Code Ann. §§ 29-5-312, -313, -314
Tenn. Code Ann. §§ 29-5-317

vm

xiv, 1, 3, 8, 15
1

Rules
Sup. Ct. R. 13.1

Xll

Sup. Ct. R. 29.2..........

xu

Sup. Ct. R. 29.6..........

in

Tenn. R. App. P. 11(a)

21

Tenn. R. Civ. P. 15.03

18

Tenn. R. Civ. P. 59

3

IX

Secondary Authorities
5 Coke, 115...............................................

16

52 Am. Jur. 2d Mandamus § 12 (1970).

17

52 Am. Jur. 2d Mandamus § 348 (2021)

18

Black’s Law Dictionary (l 1th ed. 2019).

16

F. Ferris, The Law of Extraordinary Legal Remedies
(1926)................................................................................

15

x

PETITION FOR A WRIT OF MANDAMUS
Petitioner Peter R. Culpepper respectfully petitions for
a writ of mandamus to review the judgment of the
Tennessee Chancery Court for Davidson County.
PRIOR OPINIONS
Petitioner seeks a review of the March 22,2019 Order
of the Tennessee Chancery Court for Davidson County,
which is unpublished and is reproduced in the
Appendix at A-l. A January 11, 2019 Order
referenced in the March 22, 2019 Order is
unpublished and is reproduced in the Appendix at A4.
Petitioner subsequently failed in Tennessee Courts
to
overturn
the
ruling.
See
Provectus
Biopharmaceuticals, Inc. v. Culpepper; No. M201900662-COA-R3-CV, 2020 WL 1867043 (Tenn. Ct.
App. Apr. 14, 2020), perm. app. denied (Tenn. Aug. 5,
2020). First Tenn. Supreme Court Denial, Appendix
at A-10. Petitioner filed a Petition for Writ of
Certiorari in this Court on November 3, 2020 raising
a federal question regarding Tennessee’s adoption of
the FAA, which was denied on January 11, 2021.
Lastly, Petitioner filed a Petition for Writ of
Mandamus in Tennessee, which was denied March
24, 2021, and is unpublished and is reproduced in the
Final Tenn. Supreme Court Denial, Appendix at A11.

xi

JURISDICTION
Petitioner seeks this Court’s review of the judgment
of the March 22, 2019 Order of the Tennessee Chancery
Court for Davidson County under the jurisdiction
conferred by 28 U.S.C. § 1651(a).
This petition is timely filed because it was mailed
within ninety days of March 24, 2021, the date the
petition for mandamus was denied in the highest
court below, which was the remaining legal recourse
for relief in this matter available to petitioner in
Tennessee. Supreme Court Rules 13.1 and
29.2.

Xll

CONSTITUTIONAL PROVISION
Supremacy Clause. U.S. Const, art. VI, cl. 2This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

Xlll

STATUTES INVOLVED
Federal Arbitration Act. 9 U.S.C. § 12:
Notice of a motion to vacate, modify, or correct an
award must be served upon the adverse party or his
attorney within three months after the award is filed
or delivered. If the adverse party is a resident of the
district within which the award was made, such service
shall be made upon the adverse party or his attorney
as prescribed by law for service of notice of motion in
an action in the same court. If the adverse party shall
be a nonresident then the notice of the application shall
be served by the marshal of any district within which
the adverse party may be found in like manner as other
process of the court. For the purposes of the motion any
judge who might make an order to stay the proceedings
in an action brought in the same court may make an
order, to be served with the notice of motion, staying
the proceedings of the adverse party to enforce the
award.
Tennessee Uniform Arbitration Act. Tenn. Code. Ann.
§ 29-5-312:
Upon application of a party, the court shall confirm an
award, unless, within the time limits hereinafter
imposed, grounds are urged for vacating or modifying
or correcting the award, in which case the court shall
proceed as provided in §§ 29-5-313 and 29-5*314.

xiv

STATEMENT OF THE CASE
Procedural History
There are two Tennessee cases pertinent to
Petitioner’s petition for writ of mandamus that have
had mandates issued to lower courts by the
Tennessee Supreme Court. One, Petitioner brought
a cause of action of alleged legal malpractice against
the counsel for the appellee-respondent. See
Culpepper v. Baker, Donelson, Bearman, Caldwell &
Berkowitz, P.C., No. E2019-01932-COA-R3-CV, 2020
WL 6112985 (Tenn. Ct. App. Oct. 16, 2020), perm,
app. denied, (Tenn. Mar. 17, 2021). The other is a
disputed matter by petitioner regarding his former
company that is the subject of this Petition before the
Court. See Provectus Biopharmaceuticals, Inc. v.
Culpepper, No. M2019-00662-COA-R3-CV, 2020 WL
1867043 (Tenn. Ct. App. Apr. 14, 2020), perm. app.
denied (Tenn. Aug. 5, 2020). The counsel for the
appellee-respondent is the same in both instances.
Arbitration Awards 2018
Provectus Biopharmaceuticals, Inc. (hereinafter
“Provectus”), appellee-respondent, filed its Petition to
Confirm Arbitration Award (“Arbitration”) in the
Tennessee Chancery Court for Davidson County
pursuant to Tenn. Code Ann. §§ 29-5-312 and 29*5-317
on October 4, 2018. January 11, 2019 Order, Appendix
at A-5. Provectus alleged in its Arbitration that it was
awarded a recovery in arbitration proceedings filed
against petitioner (formerly respondent in lowest court
below), Peter R. Culpepper (hereinafter “Culpepper”).
-1-

Id., Appendix at A-5. Provectus asserted that the
Arbitrator issued an Interim Award on July 12, 2018
pursuant to the Federal Arbitration Act (“FAA”)
Culpepper’s
Employment
as required
by
Agreement. Interim Award, Appendix at A-12. A
final Award likewise pursuant to the FAA was
issued on September 12, 2018. Award, Appendix at
A-19.
Tennessee Chancery Court of Davidson County Orders
January 11. 2019 Order
Culpepper filed his pro se “Answer to Petition to
Confirm Arbitration Award” (“Answer”) on November
7, 2018. January 11, 2019 Order, Appendix at A*5.
Culpepper timely filed his pro se Amended Answer on
December 11, 2018. Id. at A-6. In the Amended Answer,
Culpepper specifically requested “modification or
correction of the award.” Id. He based his amendment
on additional information from the American
Arbitration Association. Id. Culpepper asserted
allegations of a “conflict of interest” with the counsel
for Provectus. Id. at A-7. Culpepper’s pro se efforts to
pursue a legal malpractice claim against Provectus’
corporate counsel because of their alleged conflict of
interest has resulted in the more recent of the two
pertinent opinions upheld by the Tennessee Supreme
Court. See Culpepper, 2020 WL 6112985. On January
10, 2019, Culpepper secured the assistance of
counsel and filed his “Motion to Amend ‘Answer to
Petition to Confirm Arbitration Award’ and
‘Amended Answer to Petition to Confirm Arbitration
Award’” (hereinafter “Motion to Amend Pleadings”)
to further amend his pleading. January 11, 2019
-2-

Order, Appendix at A-6. In the Motion to Amend
Pleadings, Culpepper requested that the trial court
allow the filing of an amended pleading requesting
that the court vacate the arbitration award, to
provide more detail and clarity to the factual
circumstances, and to clarify that he requested that
the Tennessee court vacate the Interim Award of
July 12, 2018, and the Award of September 12, 2018,
pursuant to the provisions of Tenn. Code Ann.§ 295-313. January 11, 2019 Order, Appendix at A-7 (it was
not known by Culpepper at that time that the Act was
materially different than the FAA in pertinent instance
to his detriment). The trial court denied the Motion
to Amend Pleadings filed by Culpepper and granted
the Motion for Judgment on the Pleadings filed by
Provectus. Id. at A-8. Provectus did not clarify to the
trial court that the referenced “employment
agreement” expressly specified the FAA and not any
state law such as under the Tennessee Uniform
Arbitration Act (“the Act”). Id. at A-5 (The January
11, 2019 Order confirmed and attached the Interim and
[final] Awards. See Interim Award, Appendix at A-12
and Award at A-19).
March 22. 2019 Order
On February 20, 2019, Culpepper filed a “Motion to
Alter or Amend Judgment and Order Pursuant to
Rule 59,” which was denied by the trial court. March
22, 2019 Order, Appendix at A-2.
Tennessee Higher Court Appeals 2020 and 2021
Culpepper filed his Notice of Appeal to the Tennessee
-3-

Court of Appeals on April 17, 2019, and the Court of
Appeals entered its Judgment and Opinion
affirming the decision of the trial court on April 14,
2020. See Provectus, 2020 WL 1867043. The Court
of Appeals held that Culpepper failed to make an
application to vacate the arbitration award and
failed to state the grounds for vacating the award
within 90 days and that the subsequently filed
motion and pleadings did not apply to allow relation
back to his original pleading. Id. at *6. On August 5,
2020, the Tennessee Supreme Court denied the
application for permission to appeal by Culpepper.
First Tenn. Supreme Court Denial, Appendix at A10. Culpepper filed a Petition for Writ of Mandamus
to the Tennessee Supreme Court on March 15, 2021
which was denied March 24, 2021. Final Tenn.
Supreme Court Denial, Appendix at A-11. The
Tennessee Supreme Court upheld Culpepper’s cause
of action for legal malpractice on March 17, 2021. Id.
at n.l. See also Culpepper, 2020 WL 6112985.
United States Supreme Court Petitions 2020 and 2021
Culpepper filed a Petition for Writ of Certiorari in
this Court on November 3, 2020, which was denied
on January 11, 2021. The instant petition for
mandamus relief to this Court is filed June 21, 2021.

-4-

Facts
Introduction
Culpepper was employed by Provectus from
February 2004 through December 2016, first as its
Chief Financial Officer [and Chief Operating Officer]
and then as its Interim Chief Executive Officer.
Culpepper, 2020 WL 6112985, at *10. Culpepper and
Provectus had a series of employment agreements
over the years, the most recent of which was an
Employment Agreement entered into between
Provectus and Culpepper dated April 28, 2014
(includes “Chief Operating Officer”). AMENDED
AND RESTATED EXECUTIVE EMPLOYMENT
AGREEMENT, Appendix at A-26. The Employment
Agreement of Culpepper specifically provides under
Section 8(b) for arbitration to “be governed by” the
FAA and not by any state arbitration law(b) Arbitration. Subject to Section 8(a),
all Disputes will be submitted for
binding arbitration to the American
Arbitration Association on demand of
either
party.
Such
arbitration
proceeding will be conducted in
Knoxville, Tennessee, and, except as
otherwise provided in this Agreement,
will be heard by one (l) arbitrator in
accordance with the Commercial
Arbitration Rules of the American
Arbitration Association then in effect.
All matters relating to arbitration will
be governed by the Federal Arbitration
Act (9 U.S.C. §§ 1 et. seq.) and not by
any state arbitration law.
-5-

AMENDED
AND
RESTATED
EXECUTIVE
EMPLOYMENT AGREEMENT, Appendix at A-32
(bolded emphasis added).
Counsel for Provectus drafted Culpepper’s
Employment Agreement. Id. (note lower left of
Employment Agreement pages for the counsel
Provectus’ identifying case and file system
markings). On the first page, Provectus is identified
as a “Delaware corporation” and Culpepper as “a
resident of Knoxville, Tennessee.” Id. at A-26.
Provectus alleged in its Arbitration that it
discharged Culpepper “for cause” based upon an
assertion that he had undocumented travel related
expenses. Interim Award, Appendix at A-12.
Culpepper denies that he was terminated “for
cause.” See Culpepper, 2020 WL 6112985. He
alleged a conflict of interest with the counsel for
Provectus as his basis to vacate the arbitration
award. January 11, 2019 Order, Appendix at A-7.
During the entirety of the arbitration proceedings,
Provectus was represented by attorneys of the law
firm of Baker, Donelson, Bearman, Caldwell &
Berkowitz, P.C. (the “Law Firm” or the “counsel for
Provectus”) and continued to be represented by the
Law Firm in the proceedings before the Tennessee
Chancery Court of Davidson County. Id. Culpepper
was also previously a client of the Law Firm up to
and including one day after he was terminated by
Provectus, purportedly “for cause.” See Culpepper,
2020 WL 6112985.
-6-

Conflict of Interest and Abuse of Discretion
The basis for the request by Culpepper to apply the
FAA instead of the Act for purposes of vacating the
arbitration award is because of the strict
construction of the language in his employment
contract; “All matters relating to arbitration will be
governed by the Federal Arbitration Act (9 U.S.C. §§
1 et. seq.) and not by any state arbitration law.”
AMENDED
AND
RESTATED
EXECUTIVE
EMPLOYMENT AGREEMENT, Appendix at A-32
(underline for emphasis).
The Law Firm specified the FAA as the governing
law in their own drafted Employment Agreement for
Culpepper. Id. The Law Firm failed to apply the
relevant legal premises of the FAA before the
respondent-chancellor. January 11, 2019 Order,
Appendix at A-4. The respondent-chancellor offered
to the Law Firm the opportunity to submit an
affidavit responding to the allegations by Culpepper
of their “conflict of interest” which the Law Firm
declined to provide. Id. at A-7 (The Law Firm later in
2019 and 2020 attempted to explain that their
“conflict of interest” was somehow waived by
Culpepper, although this failed attempt by the Law
Firm was not made to the Tennessee Chancery Court
of Davidson County. See Culpepper, 2020 WL
6112985). The respondent-chancellor abused her
discretion in allowing application of the Act rather
than the FAA because the FAA was mandated both
by Culpepper’s Employment Agreement and the
Arbitration. Interim Award, Appendix at A-12.
-7-

The Law Firm used the Act rather than the FAA to
thwart Culpepper’s timely application for vacatur of
the arbitration award because the Act is stricter and
more specific than the FAA. See Provectus, 2020 WL
1867043, at *4 (Regarding the pertinent difference
between the Act in Tenn. Code. Ann. § 29-5-312 and
the FAA in 9 U.S.C. § 12, the Tennessee Court of
Appeals stated, “This difference is significant,
because ‘grounds’ [the Act] is more specific than
‘notice’ [the FAA].”).
Therefore, the respondent-chancellor abused her
discretion by applying arbitration law of the state of
Tennessee rather than the FAA. Culpepper was
ignorant of any difference between the Act and the FAA
until he learned the pertinent differences in
subsequent legal proceedings. The Law Firm prepared
Culpepper’s Employment Agreement and then used
the Act rather than the FAA in their Tennessee
Chancery Court of Davidson County filings in their
capacity as counsel for Culpepper’s prior company
Provectus. The conflict of interest by the Law Firm in
legal representation of both Culpepper at the time of
his employment at Provectus and Provectus on an
ongoing basis contributed directly and proximately to
the abuse of discretion of the respondent-chancellor.

-8-

Argument
Relief Sought
Culpepper has consistently pled in the lower courts
for his application for vacatur of his arbitration
award to be heard as permitted by the FAA—nothing
more. Therefore, Culpepper seeks this Court to
review and reverse the second ruling of the
Tennessee Chancery Court of Davidson County to
allow his motion to assert a counterclaim to vacate
the arbitration award. March 22, 2019 Order,
Appendix at A-l.
Arbitration Provision in This Case Expressly Governed
by the FAA and Not to the Act
An arbitration clause, such as contained within an
employment contract, is generally governed in
Tennessee by the Federal Arbitration Act. Frizzell
Constr. Co. v. Gatlinburg, L.L.C., 9 S.W.3d 79, 82-84
(Tenn. 1999). Presuming no issues regarding contract
formation, the mandatory arbitration provisions for
employment-related claims are enforceable in
Tennessee when the provisions are within a valid and
enforceable agreement. Allen v. Tenet Healthcare
Corp., 370 F. Supp. 2d 682, 685*86 (M.D. Tenn. 2005)
and Davis v. Reliance Elec., 104 S.W.3d 57, 58-59
(Tenn. Ct. App. 2002),perm. app. denied (Tenn. May 5,
2003).
Parties to an arbitration agreement may specify
enforcement under either state procedural statutory or
common law—also referred to as arbitration law. See
-9-

Hall St Assocs., L.L.C. v. Mattel' Inc., 552 U.S. 576,
590 (2008), Mastrobuono v. Shearson Lehman Hutton,
Inc., 514 U.S. 52, 62-64 (1995), and Volt Info. Sci., Inc.
v. Bd. ofTr. ofLeland Stanford Junior Univ., 489 U.S.
468, 477-79 (1989). State law may apply provided the
pertinent state rules do not conflict with the primary
objective of the FAA to enforce agreements to arbitrate.
See DirecTV, Inc. v. Imburgia, 577 U.S. 47, 53-59
(2015).
However, if the parties intend to replace the FAA with
state law, the intent must be clearly expressed.
Mastrobuono, 514 U.S. at 59-60 (which held that a
general choice-of-law provision contained in an
agreement is insufficient to invoke that state's
arbitration law) and Owens v. Natl Health Corp., 263
S.W.3d 876, 882-83 (Tenn. 2007). See also Coventry
Health Care ofMissouri v. Nevils, 137 S. Ct. 1190,1199
(2017) (the FAA “limits the grounds for denying
enforcement of ‘written provision [s] in . . . contract [s]’
providing for arbitration, thereby preempting state
laws that would otherwise interfere with such
contracts. §2.”). Arbitration clauses must comply with
the Act in Tennessee. See Tenn. Code Ann. §§ 29-5-301
through 29-5-320. Arbitration agreements are
presumed to be “valid, enforceable, and irrevocable” in
Tennessee, “save upon such grounds as exist at law or
in equity for the revocation . . .1 Id. at § 29-5*302(a).
Notably, the arbitration clause in Culpepper’s
Employment Agreement states unequivocally, “All
matters relating to arbitration will be governed by the
Federal Arbitration Act (9 U.S.C. §§ 1 et. seq.) and not
by any state arbitration law.” According to the FAA,
-10-

“Notice of a motion to vacate, modify, or correct an
award must be served upon the adverse party or his
attorney within three months after the award is filed
or delivered. 9 U.S.C.A. § 12 (Emphasis added).”
Provectus, 2020 WL 1867043, at *4. Therefore, “notice”
under the FAA is governing under Culpepper’s
Employment Agreement because the term “grounds” is
used in the Act as opposed to the term “notice” in the
FAA. The lower courts have misapplied use of the Act
when the FAA was instead required. The Supremacy
Clause ensures the preeminence of the FAA when the
FAA is the governing law in an agreement. U.S. Const,
art. VI, cl. 2.
Burden of Proof on Movant Seeking to Compel
Application of the FAA and Not the Act
In Tennessee, the Courts, not arbitrators, resolve
disputes regarding whether a valid agreement to
arbitrate exists and if the dispute falls within the scope
of the agreement. Tanner v. Am. Bondholder
Foundation, LLC, 2013 WL 6384543, at *2 (M.D. Tenn.
Dec. 6, 2013). Furthermore, according to this Court, the
burden is on the Petitioner to prove by “clear and
unmistakable evidence” the existence of a valid and
enforceable contract to arbitrate. First Options of
Chicago, Inc. v. Kaplan , 514 U.S. 938, 944 (1995). And,
“[A]ny doubts concerning the scope of arbitrable issues
should be resolved in favor of arbitration.” Id. at 945
(internal citations omitted).
Nevertheless, the FAA was designed in a specific way
which courts should not redesign. See Henry Schein v.
Archer and White Sales, 139 S.Ct. 524 (2019). The FAA
has been interpreted as requiring courts to expressly
-11-

enforce arbitration agreements according to their
terms. See Epic Systems Corp. v. Lewis, 138 S.Ct. 1612
(2018). Courts are permitted to refuse to enforce
arbitration agreements “upon such grounds as exist at
law or in equity for the revocation of any contract.” 9
U.S.C. § 2. However, such grounds have been
recognized only for “generally applicable contract
defenses, such as fraud, duress, or unconscionability.”
At&t Mobility LLC v. Concepcion, 563 U.S. 333, 339
(2011) (internal citations omitted).
Culpepper and Provectus clearly agreed to enter into
an arbitration proceeding as required in Culpepper’s
Employment Agreement. The absence of any contract
formation issues together with these facts have been
stipulated and were not in doubt before the respondentchancellor. Apparently, the respondent-chancellor did
not focus on the FAA because the Law Firm and
Provectus cited to the Act. At issue remains the plain
language
clearly
mandated
in
Culpepper’s
Employment Agreement that his claims are arbitrable
claims under the FAA because there is no federal
statute or regulation that preempts arbitration of
Culpepper’s claims under the FAA.
According to the FAA's plain language, an arbitrable
dispute can arise out of either the contract containing
the arbitration clause or a transaction evidenced by the
contract. See 9 U.S.C. § 2. Because the stipulated
arbitration proceeding was conducted by the American
Arbitration Association as governed by the FAA
according to Culpepper’s Employment Agreement,
Culpepper may petition for a “[n]otice of a motion to
vacate, modify, or correct an award” according to the
FAA. See 9 U.S.C. § 12. An application for such “notice”
-12-

may “make an order vacating the award upon the
application of any party to the arbitration—(l) where
the award was procured by corruption, fraud, or undue
means!” etc. See 9 U.S.C. § 10(a).
Culpepper thus has met his burden of proof because of
the clearly established legal right to arbitration under
the FAA in his contract, including his ability through
the FAA to provide “notice” of an application for
vacatur where the award was procured as a result of
the alleged conflict of interest of the Law Firm.
Presumption in Favor of Arbitration Under the FAA
and Not to the Act in this Case
There are key differences between the FAA and the Act
in Tennessee, the most germane of which has been
addressed in pertinent detail by the Tennessee Court
of Appeals. See Provectus, 2020 WL 1867043, at *3-5.
Central to their Opinion, other than references to the
Act and FAA itself, is their analysis of Tennessee cases
and those similar in other States. Each of the
Tennessee cases addresses arbitration issues where
either both the Act and the FAA are implicated by the
underlying facts, or by the Act alone. The case of
Provectus is a case of first impression in Tennessee
regarding Culpepper and his argument pursuant to the
FAA. 2020 WL 1867043, at *4.
If the FAA had been applied by the respondentchancellor as governed by Culpepper’s Employment
Agreement, there would be no confusion or apparent
conflict in this matter for any of the Tennessee courts.
Understandably, the lower courts have been led astray
from the clear language of Culpepper’s Employment
-13-

Agreement because of the conduct of Provectus and the
Law Firm. The Tennessee Court of Appeals and the
trial court were both under the incorrect assumption
that “[t]he parties submitted the dispute to arbitration
pursuant to [the Act].” Provectus, 2020 WL 1867043, at
*1. Further as stated by the Tennessee Court of
Appeals:
For its part, Provectus contends the Act
treats applications to vacate and
applications to modify as separate and
distinct. It also contends that the grounds
upon which relief is sought must be set
forth within the 90-day time frame.
Therefore, an application to vacate an
award on previously unstated grounds
cannot relate back to an application to
modify the award. Provectus insists the
trial court properly denied Culpepper’s
motion to amend on the ground of futility
because Culpepper did not file a timely
application to vacate the award.
Id. at *2. Provectus is incorrectly advocating for the
Act—not the FAA.
Although Culpepper’s Employment Agreement clearly
specified governance of arbitration by the FAA,
Provectus filed its papers to the lower courts with the
knowledge that the Act was materially different from
the FAA. Again, for emphasis, as the Tennessee Court
of Appeals has stated in response to Culpepper’s
caselaw citations (while under the incorrect
assumption that the facts were governed by the Act
instead of the FAA), “Nevertheless, we are not
-14-

persuaded by these decisions, because the language of
Tenn. Code Ann. § 29-5-312 is materially different from
the language found in the parallel provision in the
FAA.” Provectus, 2020 WL 1867043, at *4 (emphasis
added).
Provectus and the Law Firm failed to disclose before
the Tennessee courts that the FAA governed the
application by Culpepper to vacate the arbitration
award. The respondent-chancellor abused her
discretion as a result by not allowing Culpepper’s
timely application in accordance with the FAA.
Provectus clearly chose the FAA to govern the
arbitration clause in Culpepper’s Employment
Agreement. The Law Firm drafted the contract. There
is no ambiguity in the language and the presumption
for the FAA to be applied is clear. Provectus and the
Law Firm should not now be allowed to selectively
ignore the FAA in favor of the Act when it suited them
to avoid a proper application by Culpepper for vacatur.
Culpepper has a clear legal right for the FAA to be
applied as mandated because Culpepper’s legal
contractual right as the complaining party has not been
enforced.
Appropriateness of Mandamus
According to F. Ferris on Extraordinary Legal
Remedies, § 194The office of mandamus is to execute,
not adjudicate. It does not ascertain or
adjust mutual claims or rights between
the parties. If the right be doubtful, it
must be first established in some other
-15-

form of action; mandamus will not lie to
establish as well as enforce a claim of
uncertain merit. It follows therefore
that mandamus will not be granted
where the right is doubtful.
Party Denied Right to Arbitrate Under the FAA is
Entitled to Mandamus Relief
The History of the Ancient Writ of MandamusMandamus, literally “we command” in Latin, is defined
as, “A writ issued by a court to compel performance of
a particular act by a lower court or a governmental
officer or body, usu. to correct a prior action or failure
to act.” Black’s Law Dictionary, 1150 (llth ed. 2019)
(“The term mandamus . . . seems gradually to have
been confined in its application to the judicial writ
issued by the kings bench, which has by a steady
growth developed into the present writ of mandamus.”
{Quoting James L. High, A Treatise on Extraordinary
Legal Remedies § 2, at 5-6 (1884))).
Thus, this legal maxim is fitting, “quondo aliquid
mandatur, mandatur et omne per quod pervenitur ad
illud.” 5 COKE, 115 (“When anything is commanded,
everything by which it can be accomplished is also
commanded.”). In order for the writ of mandamus to he,
the petitioner must demonstrate that the act he or she
sought to be compelled is required by the law and
involves no discretion, and that she has a clear legal
right to performance of that act. The command issued
by the appropriate higher court then achieves the
desired result.
Mandamus in Tennessee and other State and Federal
-16-

Courts- The Tennessee Supreme Court has considered
the appropriateness of mandamus relief. In Meighan v.
US Sprint Communications Co., that court stated, “The
writ of mandamus is an extraordinary remedy, whose
purpose is to exert the revisory appellate power over
the inferior courts where there is no other plain,
adequate, and complete method of obtaining the relief
to which one is entitled.” 942 S.W.2d 476, 479 (citing
Allied Chemical Corp. v. Daiflon, Inc., 449 U.S. 33, 36
(1980); 52 Am. Jur. 2d Mandamus § 12 (1970)).
Continuing, “The conclusion is that in extraordinary
cases . . . this [c]ourt may, and properly should, issue
a writ of mandamus if that action is necessary to
protect its jurisdiction or accomplish substantial
justice.” Id. at 483. Nevertheless, that court did not
issue the writ in Meighan because it stated that the
matter could still be resolved otherwise. As that court
stated, “The writ would lie only in the event
appropriate relief is requested but denied.” Id. In
another case, “As this [c]ourt has explained, the
issuance of mandamus may be prevented only if
another remedy is ‘equally as convenient, complete,
beneficial, and effective as mandamus,’ and is
‘sufficiently speedy to prevent material injury.’”
Cherokee Country Club v. City of Knoxville, 152
S.W.3d 466, 479 (Tenn. 2004) (citing Meighan, 942
S.W.2d at 479). Culpepper was not successful in
obtaining appropriate relief in Tennessee Courts,
including the writ of mandamus, because the highest
court in Tennessee ruled it did not have the jurisdiction
to hear Culpepper’s Petition. Final Tenn. Supreme
Court Denial, Appendix at A-ll.
The use of a petition for a writ of mandamus in the
context of arbitration appears to be a case of first
-17-

impression in Tennessee as is the relation-back
provision of Tennessee Rule of Civil Procedure 15.03
noted by the Tennessee Court of Appeals regarding
Culpepper’s argument. Other State and Federal courts
have had the occasion and seen fit to apply writs of
mandamus to arbitrations where appropriate. See 52
Am. Jur. 2d Mandamus § 348 (2021). See Southland
Corp. v. Keating, 465 U.S. 1 (1984) (although state law
invalidated certain federal arbitration provisions,
franchisor nevertheless was entitled to arbitrate claims
of franchisees where contract provided for arbitration,
because federal law validating arbitration provisions
preempted state law) and see General Atomic Co. v.
Felter, 436 U.S. 493 (1978) (a state judge had failed to
comply with a prior judgment that he lacked authority
under the Supremacy Clause to interfere with a
company's absolute right to present its claims to
federal forums, including arbitration, and petitioner
was granted leave to file a petition for a writ of
mandamus against the judge).
In the context of a clear abuse of discretion, note two
Texas cases, including, “A party denied the right to
arbitrate pursuant to an agreement subject to the FAA
does not have an adequate remedy by appeal and is
entitled to mandamus relief to correct a clear abuse of
discretion.” In re Rubiola, 334 S.W.3d 220, 223 (Tex.
2011). The Texas Supreme Court also held in the
context of a trial court’s refusal to properly compel
arbitration, “Mandamus will issue if the relator
establishes a clear abuse of discretion for which there
is no adequate remedy by appeal.” In re 24R, Inc., 324
S.W.3d 564, 566 (Tex. 2010). The Texas Court was
requested by the relator to “vacate the trial court's
order denying its motion to compel arbitration.” Id.
-18-

Mandamus is also appropriate as a remedy for
agreements pursuant to the FAA. The Alabama
Supreme Court ruled on a matter where the trial
court’s order was based on state arbitration law instead
of the FAA. The Alabama Court then concluded, “The
parties’ agreement to be governed by the Federal
Arbitration Act is express and clear.” Ex parte Palm
Harbor Homes, Inc., 798 So. 2d 656, 663 (Ala. 2001).
And, the relators “have thus shown a clear, legal right
to relief.” Id.
Here in the instant case, Culpepper is likewise
requesting this Court to vacate or otherwise reverse the
Tennessee Chancery Court of Davidson County’s
March 22, 2019 Order denying Culpepper’s application
for vacatur of his arbitration pursuant to the FAA. The
Employment Agreement of Culpepper and Provectus to
be governed by the FAA is “express and clear.”
Mandamus in Cases of First Impression- If a
mandamus case relates to a matter of first impression
or exceptional importance, it may warrant additional
consideration and significance. Of course, mandamus is
no substitute if a matter can be resolved in the trial
courts. As this Court has stated, “[i]n order to insure
that the writ will issue only in extraordinary
circumstances this Court has required that a party
seeking issuance have no other adequate means to
attain the relief he desires.” Allied Chemical Corp., 449
U.S. at 35. Culpepper has exhausted all avenues for
lower court relief.
Federal courts have issued mandamus in cases
involving issues of exceptional importance and first
-19-

impression. For example, see Colonial Times, Inc. v.
Gasch, 509 F.2d 517 (D.C. Cir. 1975) (mandamus was
appropriate because the case presented an issue of first
impression), United States v. Hughes, 413 F.2d 1244
(5th Cir. 1969) (one of the factors that justified the
exercise of the “expository and supervisory function” of
mandamus included the presence of an issue of first
impression), United States v. United States District
Court, 444 F.2d 651 (6th Cir. 1971) (recognizing its
discretion to issue a writ of mandamus when
exceptional circumstances exist), and CBS, Inc. v.
Young, 522 F.2d 234 (6th Cir. 1975) (unassailable
application of mandamus).
Notably, the position of this Court is that mandamus is
appropriate not only in cases of usurpation of judicial
power or clear abuses of discretion, but also when an
issue of first impression was manifest. This Court
clearly held a writ may be used, “where there is clear
abuse of discretion or ‘usurpation of judicial power.’”
Bankers Life & Cas. Co. v. Holland, 346 U.S. 379, 383
(1953) (internal citation omitted). Citing to Holland,
this Court expanded on the applicability of its
mandamus power to review an “issue of first
impression” in order to “settle new and important
problems.” Schlagenhauf v. Holder, 379 U.S. 104, 111
(1964). The Tennessee issues of first impression
regarding the conflict of the FAA and state arbitration
law, and also where a new and important problem in
the lower courts can exist resulting in an abuse of
discretion because of the alleged conflict of interest by
the Law Firm, are both in the purview of the duty
entrusted to this Court by law in which Culpepper
pleads for relief in this Petition.
-20-

Culpepper’s appeal by permission of Provectus to the
Tennessee Supreme Court failed under Tenn. R. App.
P. 11(a). First Tenn. Supreme Court Denial,
Appendix at A-10. Subsequent to that court’s denial of
Culpepper’s permission to appeal Provectus is the
rendering of the Opinion of the Tennessee Court of
Appeals in Culpepper that further clarified the alleged
conflict of interest of the Law Firm. That latter Opinion
was later upheld. In the interim, Culpepper pleaded for
reconsideration by the Tennessee Supreme Court of the
unique and extraordinary aspects of the conflict of
interest that the Law Firm has likewise perpetrated on
Tennessee courts by and through their failure to
acknowledge that Culpepper’s Employment Agreement
is governed by the FAA and not any state arbitration
law. Nevertheless, Tennessee’s Supreme Court lacked
jurisdiction to further consider Culpepper’s pleadings.
Only this Court remains for Culpepper to obtain relief.

-21-

PRAYER
For the reasons set forth above in this Petition
for Writ of Mandamus, Peter R. Culpepper,
appellant-petitioner, respectfully requests that
this Court vacate or otherwise reverse the
rulings of the Tennessee Chancery Court of
Ellen
Honorable
Davidson County and the
respondent-chancellor,
thereby
Lyle,
Hobbs
granting Culpepper’s Motion to Amend Pleadings,
denying Provectus’ Motion for Judgment on the
Pleadings and confirmation of the arbitration
award, and remand the case to the trial court for a
hearing on the merits of the application of
Culpepper to vacate the arbitration award.
In conclusion, Petitioner respectfully prays that a writ
of mandamus be issued by this Court directed to the
respondent-chancellor directing her to vacate her
March 22, 2019 Order. Culpepper has no adequate
remedy at law and prays for mandamus relief from
this Court to enforce the arbitration agreement as
governed by the FAA, costs, and grant all
further relief, both general and special, as
mandated by the premises, and as justice requires.
Respectfully submitted,

Peter R. Culpepper, Petitioner
Pro Se
9700 Collier Pass Lane
Knoxville, Tennessee 37922
(865) 604-0657
-22-

APPENDIX
TABLE OF CONTENTS
March 22, 2019 Order Tenn. Chancery Court

A-l

January 11, 2019 Order Tenn. Chancery Court.. A-4
First Tenn. Supreme Court Denial

A-10

Final Tenn. Supreme Court Denial

A-ll

Interim Award, Employment Arbitration

A-12

Award, Employment Arbitration

A-19

Amended and Restated Executive Emp. Agr.... A-26
This page intentionally left blank

A-i

A-36

IN THE CHANCERY COURT FOR THE STATE OF TENNESSEE
20™ JUDICIAL DISTRICT, DAVIDSON COUNTY
PROVECTUS BIOPHARMACEUTICALS,
INC.,
Petitioner,
v.
PETER R. CULPEPPER,
Respondent.

)
)
)
)
)
)
)
)
)
)

CASE NO. 18-1077-III

ORDER DENYING RESPONDENT PETER R. CULPEPPPER'S MOTION TO ALTER
OR AMEND JUDGMENT AND ORDER PURSUANT TO RULE 59
This matter came to be heard on March 22, 2019, upon Respondent Peter R. Culpepper’s
(',Respondent,' or "Culpepper") Motion to Alter or Amend Judgment and Order Pursuant to Rule
59. Based on the pleadings, briefs, argument of counsel, and the entire record in this cause,
Respondent's Motion to Alter or Amend is not well taken and is denied. The Court stands by its
previous Order Confirming the Arbitration Award and Granting Petitioner's Motion for
Judgment on the Pleadings and Judgment Confirming the Arbitration Award. As the Court
previously held, Respondent failed to file an application to vacate the September 12, 2018
arbitration award (the "Arbitration Award") within 90 days of receiving such award as required
by Tenn. Code Ann. § 29-5-313(b). Respondent failed to show the Court made a clear error of
law in granting Petitioner Provectus Biopharmaceuticals, Inc.'s ("Petitioner" or "Provectus")
Motion for Judgment on the Pleadings and denying Respondent's Motion to Amend "Answer to
Petition to Confirm Arbitration Award" and "Amended Answer to Petition to Confirm
Arbitration Award."
1 [A-l]
4841-9514-2543
2815173-000028

Based on the pleadings, the Arbitration Award was issued on September 12, 2018 and
any application to vacate the Arbitration Award was required to be filed by December 11, 2018
pursuant to Tenn. Code Ann. § 29-5-313(b). Respondent failed to file an application to vacate
the Arbitration Award by December 11, 2018. As such, Respondent's attempt to amend his
previously filed Answer and Amended Answer to include a counterclaim to vacate the
Arbitration Award on January 10, 2019 was untimely. Rule 15.01 of the Tennessee Rules of
Civil Procedure is not applicable to the current facts before the Court because the January 10,
2019 Motion to Amend to assert a counterclaim to vacate the Arbitration Award was
Respondent’s first attempt to vacate the Arbitration Award. The Court finds the authority cited
by Respondent is distinguishable from the facts before the Court. Given the limited purview of
the Court to review arbitration awards under the Tennessee Uniform Arbitration Act and the
State of Tennessee's policy to confirm arbitration awards, the Court finds the Arbitration Award
was required to be confirmed in light of the pleadings before the Court and Respondent's failure
to timely file an application to vacate the Arbitration Award.
IT IS, THEREFORE, ORDERED, ADJUDGED, AND DECREED Respondent s
Motion to Alter or Amend Judgment and Order Pursuant to Rule 59 is DENIED.
IT IS SO ORDERED this__ day of March, 2019.

CHANCELLOR ELLEN LYLE

2 [A-2]
4841-9514-2543
2815173-000028

Submitted by:

BAKER. DONELSON, BEARMAN,
CALDWA^L & BERKO WITZ, P.C.

Martha L. Btj'ydtfePR/// 022029)
Samuel L./Mllker (BPR U 009045)
mpson (BPR #031019)
Brittany
211 Commerce Street. Suite 800
Nashville. Tennessee 37201
(615) 726-5600
(615) 744-5632 (facsimile)
Attorneys for Petitioner Provectus
Biopharmaceuticals, Inc.

CERTIFICATE OF SERVICE
1 hereby certify that a copy of the foregoing has been served by U. S. Mail, postage
prepaid, and email on this the 26th day of March, 2019. to the following:
Thomas M. Leveille (BPR# 014395)
Tarpy, Cox. Fleishman & Leveille. PLLC
1111 N. Northshore Drive
Landmark Center North Tower
Suite N-290
Knoxville, TN 37919
Tel (865)588-1096
Fax (865) 588-1171
tleveille@tcflattorneys.com

Brittany B J* mpson

0

3
4S41-9514-2543
2815173-000028

[A-3]

IN THE CHANCERY COURT FOR THE STATE OF TENNESSEE
20th JUDICIAL DISTRICT, DAVIDSON COUNTY
PROVECTUS BIOPHARMACEUTICALS,
INC.,

)
)
)
)
)
)
)
)
)
)

Petitioner,
v.
PETER R. CULPEPPER,
Respondent.

CASE NO. 18-1077-III

ORDER CONFIRMING THE ARBITRATION AWARD AND GRANTING
PETITIONER’S MOTION FOR JUDGMENT ON THE PLEADINGS
This matter came to be heard on January 11, 2019 upon Petitioner Provectus
Biopharmaceuticals, Inc.'s ("Petitioner" or "Provectus ") Motion for Judgment on the Pleadings,
requesting the Court to confirm the arbitration awards that are the subject of Petitioner's Petition
to Confirm the Arbitration Award (the "Petition") in this cause. At the hearing, Petitioner was
represented by the law firm of Baker, Donelson, Bearman, Caldwell, & Berkowitz, PC and
Respondent Peter R. Culpepper ("Respondent" or "Culpepper") was represented by Thomas M.
Leveille of the law firm of Tarpy, Cox, Fleishman & Leveille, PLLC.

The day before the

hearing, Respondent filed an Opposition to the Motion for Judgment on the Pleadings, a Motion
to Amend Answer, and a proposed Second Amended Answer and Application to Vacate
Arbitration Award. Respondent also filed a Motion to Excuse Compliance with Local Rule
26.04 requesting the Court to accept the late-filed Opposition to the Motion for Judgement on the
Pleadings. Petitioner was consulted and agreed all motions could be heard at this hearing,
despite lack of compliance with Local Rules, and the Court granted Respondent's Motion to
Excuse Compliance with Local Rule 26.04.
1

[A-4]

It appears to the Court, from the pleadings, briefs, argument of counsel, and the entire
record in this cause that Petitioner's Motion for Judgment on the Pleadings is well-taken and
should be granted. It further appears that Respondent's Motion to Amend Answer and to file a
Counterclaim to Vacate the Arbitration Award is futile and is accordingly denied. The Court
makes the following findings and conclusions:
On October 4, 2010, Petitioner filed its Petition to Confirm Arbitration Award, pursuant
to Tenn. Code Ann. § 29-5-312 and § 29-5-317, requesting the Court confirm the arbitration
awards attached to the Petition as Exhibits B and C (hereinafter collectively referred to as the
"Final Award"). Exhibit B is a detailed Interim Award, issued July 12, 2018, finding that
Culpepper's termination by Provectus was for cause under his employment agreement and
granting monetary recovery to Provectus for Culpepper's improperly obtained expense
reimbursement and for amounts owed under a previously executed settlement agreement.
Exhibit C was a second detailed Award, issued September 12, 2018, granting Provectus recovery
for certain attorneys' fees and costs. The amount of the Final Award in favor of Provectus
totaled $2,819,019.87, with daily interest continuing to accrue pursuant to the terms of the Final
Award.
On or around November 7, 2018, Respondent proceeding pro se, filed his Answer to the
Petition, admitting all material allegations, with the limited exception that Respondent disputed
Petitioner's claim for certain items of pre-judgment interest. The initial Answer did not seek to
vacate or modify the Final Award. Petitioner responded on November 15, 2018 by filing the
Motion for Judgement on the Pleadings that forgoes Petitioner's request for prejudgment interest
with respect to the items that Respondent disputed in his Answer and requesting the Court to
immediately confirm the Final Award and enter a judgment in the amount of $2,819,019.87, plus
2

[A-5]

accruing interest, plus Provectus's costs and attorneys' fees in filing this action. The original
hearing date of the Motion for Judgment on the Pleadings was continued at the request of
Respondent and reset for December 14,2018.
On December 10, 2018, Respondent filed a Motion to Request Further Continuance of
Hearing Date. On December 11, 2018, Respondent filed an Amended Answer. Respondent did
not seek leave by motion to file an amendment to his answer as required under Rule 15.01 of the
Tennessee Rules of Civil Procedure or set any hearing to request leave to seek an amendment.
The Amended Answer provides for two affirmative defenses. The "First Affirmative Defense"
states, "Pursuant to T.C.A. § 29-5-314, Mr. Culpepper requests modification or correction of the
award, to the extent that additional information has been obtained by him regarding this matter
from the American Arbitration Association subsequent to his previous Answer to this Court."
The "Second Affirmative Defense" deals with Respondent's request for a continuance so that he
could have additional time to retain counsel. Respondent's Amended Answer was not styled as
an application to vacate or modify the Final Award, did not contain a request pursuant to Tenn.
Code Ann. §29-5-313 to vacate the Final Award, and failed to provide specific grounds for
modifying the Final Award under Tenn. Code Ann. § 29-5-314. The Court granted the Motion
to Request Further Continuance and the Motion for Judgment on the Pleadings was continued
until January 11, 2019.
On January 10, 2019, Respondent filed a Motion to Amend "Answer to Petition to
Confirm Arbitration Award" and "Amended Answer to Petition to Confirm Arbitration Award"
("Motion to Amend"). Attached to the Motion to Amend was a Proposed Second Amended and
Restated Answer to Petition to Confirm Arbitration Award and Application to Vacate the
Arbitration Award. In this filing, Respondent argued for the first time that the Arbitration Award
3

[A-6]

should be vacated pursuant to Tenn. Code Ann. § 29-5-313. Term. Code Ann. § 29-5-313(b)
provides than an application to vacate an arbitration award under Tenn. Code Ann. § 29-5-313
must be made within ninety (90) days after delivery of a copy of the award to the applicant.1 The
Final Award was issued on September 12, 2018 and any application to vacate the Final Award
was required to be filed by December 11, 2018 pursuant to Tenn. Code Ann. § 29-5-313(b).
Based on the foregoing, the Motion for Judgment on the Pleadings to Confirm the
Arbitration Award is granted. The Court dismisses Respondent’s argument that Rule 15.01 of
the Tennessee Rules of Civil Procedure should operate to permit amendment to assert a claim to
vacate the Arbitration Award. The explicit wording of Tenn. Code Ann. § 29-5-313(b) indicates
to the Court that Rule 15.01 of the Tennessee Rules of Civil Procedure does not apply to the
facts before the Court. The Court finds there was not a timely application to vacate the Final
Award, and therefore the Respondent’s Motion to Amend is denied as futile.
Petitioner's counsel may file an affidavit responding to the allegations of a "conflict of
interest" located in the Proposed Second Amended and Restated Answer to Petition to Confirm
Arbitration Award and Counterclaim to Vacate the Arbitration Award. Due to the late filings by
Respondent, Petitioner should have an opportunity to put in the record their version of the facts
relating to Respondent's allegations.
A true and correct transcript of the Court's January 11,2019 ruling is attached as Exhibit
A and incorporated into this Order. IT IS, THEREFORE, ORDERED, ADJUDGED, AND
DECREED that:
1.

Respondent's Motion to Excuse Compliance with Local Rule 26.04(e) is

GRANTED.
1 Tenn. Code Ann. § 29-5-313(b) provides certain exceptions for the 90 day deadline to file an application to vacate.
Respondent has not asserted any of the exceptions, and none of the exceptions are applicable to the current facts
before the Court.

4

[A-7]

2.

Respondent's Motion to Amend Answer to Petition to Confirm Arbitration Award

and Amended Answer to Petition to Confirm Arbitration Award is DENIED.
3.

Petitioner's Motion for Judgment on the Pleadings to Confirm the Arbitration

Award is GRANTED and a Judgment Confirming Arbitration Award shall be submitted for the
Court's execution in accordance with the Final Award attached as Exhibits B and C to the
Petition.
4.

This Order confirms the Final Award which is attached and incorporated into this

Order as Collective Exhibit B. This action shall remain open solely for the purpose of post­
judgment discovery in the manner as outlined in the contemporaneously filed Post-Judgment
Scheduling Order.
IT IS SO ORDERED this

day of January, 2019.

CHANCELLOR ELLEN LYLE

5

[A-8]

